AUDIT OF COMPLIANCE WITH STANDARDS GOVERNING

 COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE

             MICHIGAN STATE POLICE

           GRAND RAPIDS LABORATORY

            GRAND RAPIDS, MICHIGAN



           U.S. Department of Justice

         Office of the Inspector General

                  Audit Division



          Audit Report GR-50-13-005

                December 2012

  AUDIT OF COMPLIANCE WITH STANDARDS GOVERNING

   COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE

               MICHIGAN STATE POLICE

             GRAND RAPIDS LABORATORY

              GRAND RAPIDS, MICHIGAN


                            EXECUTIVE SUMMARY


      The Department of Justice, Office of the Inspector General (OIG),
Audit Division, has completed an audit of compliance with standards
governing Combined DNA Index System (CODIS) activities at the Michigan
State Police (MSP) Grand Rapids Laboratory (Laboratory).

Background

      The Federal Bureau of Investigation’s (FBI) CODIS program combines
forensic science and computer technology to provide an investigative tool to
federal, state, and local crime laboratories in the United States, as well as
those from select international law enforcement agencies. The CODIS
program allows these crime laboratories to compare and match DNA profiles
electronically to assist law enforcement in solving crimes and identifying
missing or unidentified persons. 1 The FBI’s CODIS Unit manages CODIS, as
well as develops, supports, and provides the program to crime laboratories
to foster the exchange and comparison of forensic DNA evidence.

      The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. The hierarchy consists of three distinct
levels that flow upward from the local level to the state level and then, if
allowable, the national level. The National DNA Index System (NDIS), the
highest level in the hierarchy, contains DNA profiles uploaded by law
enforcement agencies across the United States and is managed by the FBI.
NDIS enables the laboratories participating in the CODIS program to
electronically compare DNA profiles on a national level. The State DNA
Index System (SDIS) is used at the state level to serve as a state’s DNA
database and contains DNA profiles from local laboratories and state
offenders. The Local DNA Index System (LDIS) is used by local laboratories.


       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
OIG Audit Objectives

       Our audit generally covered the period from April 2010 through
April 2012. 2 The objectives of our audit were to determine if: (1) the MSP
Grand Rapids Laboratory was in compliance with the NDIS participation
requirements; (2) the Laboratory was in compliance with the Quality
Assurance Standards (QAS) issued by the FBI; and (3) the Laboratory’s
forensic DNA profiles in CODIS databases were complete, accurate, and
allowable for inclusion in NDIS.

       Our review determined the following:

       •	 The Laboratory complied with the NDIS participation requirements
          we reviewed. Specifically, we found that the Laboratory maintained
          adequate security over its facilities and CODIS servers, submitted
          the required background information on CODIS users to the FBI,
          kept records showing CODIS users were properly trained, and was
          timely in resolving the NDIS matches we reviewed.

       •	 The Laboratory complied with the QAS we reviewed. Specifically,
          we found that the Laboratory: (1) underwent QAS reviews within
          designated timeframes; (2) had procedures in place to ensure that
          access to the Laboratory was controlled and limited to authorized
          personnel; and (3) followed protocols with regard to amplified
          samples being maintained in separate rooms from the evidence
          examination, DNA extraction, and PCR setup areas.

       •	 We reviewed 100 of the 3,649 forensic profiles the Laboratory had
          uploaded to NDIS as of April 5, 2012. Of the 100 forensic profiles
          sampled, 8 were unallowable for inclusion in NDIS. The profiles
          were either missing supporting information to prove they were
          allowable for upload to NDIS, belonged to the victim, or could not
          be connected to the crime scene. The Laboratory removed all eight
          profiles from NDIS. Because all eight unallowable profiles were
          processed by the Laboratory prior to FBI Guidance issued in 2006,
          it appears the Laboratory is now following procedures to prevent

       2
          In its response to our draft report, the Laboratory commented on the scope of our
audit and indicated that the scope should be clarified to indicate that analysis performed in
support of our third objective included NDIS specimen entries from 2000 through
2012. When selecting forensic profiles for detailed testing, we utilized a universe of all
profiles that were active in NDIS at the time of our audit. Because laboratories are
responsible for all profiles maintained at NDIS regardless of when they were uploaded, we
consider those profiles to be within the audit scope identified here.



                                            - ii ­
         entry of unallowable profiles into NDIS. The remaining 92 profiles
         we reviewed were complete, accurate, and allowable for inclusion in
         NDIS.

      The results of our audit are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are detailed in Appendix I of the report and the audit criteria
are detailed in Appendix II.

      We discussed the results of our audit with Laboratory officials and
have included their comments in the report as applicable.




                                    - iii ­
                               TABLE OF CONTENTS



INTRODUCTION ................................................................................ 1

   Background .....................................................................................1

   OIG Audit Objectives ........................................................................1

   Legal Foundation for CODIS...............................................................1

   CODIS Structure ..............................................................................3

   Laboratory Information .....................................................................6


FINDINGS AND RECOMMENDATIONS................................................ 7

   I. Compliance with NDIS Participation Requirements............................7

   II. Compliance with Quality Assurance Standards ................................9

   III. Suitability of Forensic DNA Profiles in CODIS Databases................ 12


APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ............... 16


APPENDIX II: AUDIT CRITERIA ..................................................... 19

   NDIS Participation Requirements ...................................................... 19

   Quality Assurance Standards ........................................................... 19

   Office of the Inspector General Standards ......................................... 20


APPENDIX III: AUDITEE RESPONSE .............................................. 22


APPENDIX IV: FEDERAL BUREAU OF INVESTIGATION RESPONSE.. 23

                                  INTRODUCTION

      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Michigan State Police
(MSP) Grand Rapids Laboratory (Laboratory).

Background

      The Federal Bureau of Investigation’s (FBI) CODIS provides an
investigative tool to federal, state, and local crime laboratories in the United
States using forensic science and computer technology. The CODIS program
allows these laboratories to compare and match DNA profiles electronically,
thereby assisting law enforcement in solving crimes and identifying missing
or unidentified persons. 3 The FBI’s CODIS Unit manages CODIS and is
responsible for its use in fostering the exchange and comparison of forensic
DNA evidence.

OIG Audit Objectives

       Our audit covered the period from April 2010 through April 2012. 4 The
objectives of our audit were to determine if: (1) the MSP Grand Rapids
Laboratory was in compliance with the National DNA Index System (NDIS)
participation requirements; (2) the Laboratory was in compliance with the
Quality Assurance Standards (QAS) issued by the FBI; and (3) the
Laboratory’s forensic DNA profiles in CODIS databases were complete,
accurate, and allowable for inclusion in NDIS. Appendix I contains a detailed
description of our audit objectives, scope, and methodology; and
Appendix II contains the criteria used to conduct the audit.

Legal Foundation for CODIS

      The FBI’s CODIS program began as a pilot project in 1990. The DNA
Identification Act of 1994 (Act) authorized the FBI to establish a national
index of DNA profiles for law enforcement purposes. The Act, along with

       3
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
       4
          When selecting forensic profiles for detailed testing, we utilized a universe of
profiles that were active in NDIS at the time of our audit, which included those uploaded
since the inception of the CODIS program at the Grand Rapids Laboratory.
subsequent amendments, has been codified in a federal statute (Statute)
providing the legal authority to establish and maintain NDIS. 5

Allowable DNA Profiles

      The Statute authorizes NDIS to contain the DNA identification records
of persons convicted of crimes, persons who have been charged in an
indictment or information with a crime, and other persons whose DNA
samples are collected under applicable legal authorities. Samples voluntarily
submitted solely for elimination purposes are not authorized for inclusion in
NDIS. The Statute also authorizes NDIS to include analysis of DNA samples
recovered from crime scenes or from unidentified human remains, as well as
those voluntarily contributed from relatives of missing persons.

Allowable Disclosure of DNA Profiles

       The Statute requires that NDIS only include DNA information that is
based on analyses performed by or on behalf of a criminal justice agency –
or the U.S. Department of Defense – in accordance with QAS issued by the
FBI. The DNA information in the index is authorized to be disclosed only:
(1) to criminal justice agencies for law enforcement identification purposes;
(2) in judicial proceedings, if otherwise admissible pursuant to applicable
statutes or rules; (3) for criminal defense purposes, to a defendant who shall
have access to samples and analyses performed in connection with the case
in which the defendant is charged; or (4) if personally identifiable
information (PII) is removed for a population statistics database, for
identification research and protocol development purposes, or for quality
control purposes.




      5
          42 U.S.C.A. § 14132 (2006).

                                        -2­
CODIS Structure

       The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. CODIS consists of a hierarchy of three
distinct levels: (1) NDIS, managed by the FBI as the nation’s DNA database
containing DNA profiles uploaded by participating states; (2) the State DNA
Index System (SDIS) which serves as a state’s DNA database containing
DNA profiles from local laboratories within the state and state offenders; and
(3) the Local DNA Index System (LDIS), used by local laboratories. DNA
profiles originate at the local level and then flow upward to the state and, if
allowable, national level. For example, the local laboratory in the Palm
Beach County, Florida, Sheriff’s Office sends its profiles to the state
laboratory in Tallahassee, which then uploads the profiles to NDIS. Each
state participating in CODIS has one designated SDIS laboratory. The SDIS
laboratory maintains its own database and is responsible for overseeing
NDIS issues for all CODIS-participating laboratories within the state. The
graphic below illustrates how the system hierarchy works.

                 Example of System Hierarchy within CODIS

                                           NDIS
                                   Maintained by the FBI




SDIS                            SDIS                             SDIS
Laboratory                      Laboratory                       Laboratory
Richmond, CA                    Springfield, IL                  Tallahassee, FL



                                  LDIS Laboratories (partial list):
                                  DuPage County Sheriff’s Office
                                  Illinois State Police, Chicago
                                  Illinois State Police, Rockford

 LDIS Laboratories (partial list):                       LDIS Laboratories (partial list):
 Orange County Sheriff’s Department                      Broward County Sheriff’s Office
 San Bernardino County Sheriff’s Department              Miami-Dade Police Department
 San Diego Police Department                             Palm Beach County Sheriff’s Office




                                              -3­
National DNA Index System

       NDIS, the highest level in the CODIS hierarchy, enables laboratories
participating in the CODIS program to electronically compare DNA profiles on
a national level. NDIS does not contain names or other PII about the
profiles. Therefore, matches are resolved through a system of laboratory­
to-laboratory contacts. NDIS contains the following eight searchable
indices:

       •	   Convicted Offender Index contains profiles generated from persons
            convicted of qualifying offenses. 6

       •	   Arrestee Index is comprised of profiles developed from persons who
            have been arrested, indicted, or charged in an information with a
            crime.

       •	   Legal Index consists of profiles that are produced from DNA
            samples collected from persons under other applicable legal
            authorities. 7

       •	   Detainee Index contains profiles from non-U.S. persons detained
            under the authority of the United States and required by law to
            provide a DNA sample for analysis and entry into NDIS.

       •	   Forensic Index profiles originate from, and are associated with,
            evidence found at crime scenes.

       •	   Missing Person Index contains known DNA profiles of missing
            persons and deduced missing persons.

       •	   Unidentified Human (Remains) Index holds profiles from
            unidentified living individuals and the remains of unidentified
            deceased individuals. 8




       6
          The phrase “qualifying offenses” refers to local, state, or federal crimes that
require a person to provide a DNA sample in accordance with applicable laws.
       7
         An example of a Legal Index profile is one from a person found not guilty by
reason of insanity who is required by the relevant state law to provide a DNA sample.
       8
           An example of an Unidentified Human (Remains) Index profile from a living person
is a profile from a child or other individual who cannot or refuses to identify themselves.

                                             -4­
      •	   Relatives of Missing Person Index is comprised of DNA profiles
           generated from the biological relatives of individuals reported
           missing.

      Given these multiple databases, the main functions of CODIS are to:
(1) generate investigative leads that may help in solving crimes, and
(2) identify missing and unidentified persons.

       The Forensic Index generates investigative leads in CODIS that may
help solve crimes. Investigative leads may be generated through matches
between the Forensic Index and other indices in the system, including the
Convicted Offender, Arrestee, and Legal Indices. These matches may
provide investigators with the identity of suspected perpetrators. CODIS
also links crime scenes through matches between Forensic Index profiles,
potentially identifying serial offenders.

       In addition to generating investigative leads, CODIS furthers the
objectives of the FBI’s National Missing Person DNA Database program
through its ability to identify missing and unidentified individuals. For
instance, those persons may be identified through matches between the
profiles in the Missing Person Index and the Unidentified Human (Remains)
Index. In addition, the profiles within the Missing Person and Unidentified
Human (Remains) Indices may be vetted against the Forensic, Convicted
Offender, Arrestee, Detainee, and Legal Indices to provide investigators with
leads in solving missing and unidentified person cases.

State and Local DNA Index Systems

       The FBI provides CODIS software free of charge to any state or local
law enforcement laboratory performing DNA analysis. Laboratories are able
to use the CODIS software to upload profiles to NDIS. However, before a
laboratory is allowed to participate at the national level and upload DNA
profiles to NDIS, a Memorandum of Understanding (MOU) must be signed
between the FBI and the applicable state’s SDIS laboratory. The MOU
defines the responsibilities of each party, includes a sublicense for the use of
CODIS software, and delineates the standards laboratories must meet in
order to utilize NDIS. Although officials from LDIS laboratories do not sign
an MOU, LDIS laboratories that upload DNA profiles to an SDIS laboratory
are required to adhere to the MOU signed by the SDIS laboratory.

       States are authorized to upload DNA profiles to NDIS based on local,
state, and federal laws, as well as NDIS regulations. However, states or
localities may maintain NDIS-restricted profiles in SDIS or LDIS. For
instance, a local law may allow for the collection and maintenance of a

                                      -5­
victim profile at LDIS but NDIS regulations do not authorize the upload of
that profile to the national level.

       CODIS becomes more useful as the quantity of DNA profiles in the
system increases because the potential for additional leads rises. However,
the utility of CODIS relies upon the completeness, accuracy, and quality of
profiles that laboratories upload to the system. Incomplete CODIS profiles
are those for which the required number of core loci were not tested or do
not contain all of the DNA information that resulted from a DNA analysis and
may not be searched in NDIS. 9 The probability of a false match among DNA
profiles is reduced as the completeness of a profile increases. Inaccurate
profiles, which contain incorrect DNA information or an incorrect specimen
number, may generate false-positive leads, false-negative comparisons, or
lead to the misidentification of a sample. Further, laws and regulations
exclude certain types of profiles from being uploaded to CODIS to prevent
violations to an individual’s privacy and foster the public’s confidence in
CODIS. Therefore, it is the responsibility of the Laboratory to ensure that it
is adhering to the NDIS participation requirements and the profiles uploaded
to CODIS are complete, accurate, and allowable for inclusion in NDIS.

Laboratory Information

      The audited Laboratory participates in the CODIS program as a Local
DNA Index System Laboratory. The Laboratory began using DNA to process
criminal cases in 1999 and sent its information to the MSP main laboratory
in Lansing, Michigan, to be entered into CODIS. This practice continued until
2001 when the Grand Rapids Laboratory received its own CODIS terminals
and equipment. The Laboratory performs analysis on forensic samples, and
our audit focused on the analysis of forensic profiles. The Laboratory did not
contract with an outside laboratory for the analysis of forensic samples
during our review period. We verified that the Laboratory received its last
accreditation by the American Society of Crime Laboratory Directors
(ASCLD) in 2006 and is reviewed every 5 years. In December 2011, the lab
was reviewed for re-accreditation and the report had no findings of
non-compliance. However, that review had not been closed out at the time
of our fieldwork.




      9
          A “locus” is a specific location on a chromosome. The plural form of locus is loci.

                                             -6­
              FINDINGS AND RECOMMENDATIONS


     I.	 Compliance with NDIS Participation Requirements

     The Laboratory complied with the NDIS participation
     requirements we reviewed.

      The NDIS participation requirements, which consist of the MOU and
the NDIS Procedure Manual, establish the responsibilities and obligations of
laboratories that participate in the CODIS program at the national level. The
MOU describes the CODIS-related responsibilities of both the Laboratory and
the FBI. The NDIS Procedure Manual is comprised of the NDIS operational
procedures and provides detailed instructions for laboratories to follow when
performing certain procedures pertinent to NDIS. The NDIS participation
requirements we reviewed are listed in Appendix II of this report.

Results of the OIG Audit

      We found that the Laboratory complied with the NDIS participation
requirements we reviewed. Specifically, we found that the Laboratory
maintained adequate security over its facilities and CODIS servers,
submitted the required background information on CODIS users to the FBI,
kept records showing CODIS users were properly trained, and were timely in
resolving the NDIS matches we reviewed. The results of our audit are
described in more detail below.

     •	 We interviewed the CODIS Administrator and conducted a walk­
        through tour of the building and the Laboratory. We identified no
        significant concerns regarding the Laboratory’s procedures for
        securing the CODIS server or the Laboratory’s facilities.

     •	 We interviewed the CODIS Administrator to determine that
        appropriate staff have received a copy of the NDIS procedures
        manual and measures have been taken to ensure personnel
        understand and abide by the manual. We also interviewed two
        CODIS users and determined that they understood NDIS
        procedures and could access the procedures via the Laboratory’s
        online system.

     •	 We verified with the FBI that all Laboratory CODIS users completed
        the 2012 annual NDIS training.



                                    -7­
     •	 The Laboratory is required to submit certain background and
        security information to the FBI for each CODIS user. We verified
        that the Laboratory submitted the required information to the FBI.

     •	 We reviewed a sample of five NDIS matches and determined that
        each match was confirmed by the Laboratory in a timely manner,
        and the investigators were notified within 2 weeks of the match.

Conclusion

       We found the Laboratory to be in compliance with all areas of NDIS
participation requirements that we reviewed. We made no
recommendations concerning our review of NDIS participation requirements.




                                   -8­
       II. Compliance with Quality Assurance Standards

       The Laboratory complied with the Forensic Quality Assurance
       Standards we reviewed.

       During our audit, we considered the Forensic Quality Assurance
Standards (QAS) issued by the FBI. 10 These standards describe the quality
assurance requirements that the Laboratory must follow to ensure the
quality and integrity of the data it produces. We also assessed the two most
recent QAS reviews that the laboratory underwent. 11 The QAS we reviewed
are listed in Appendix II.

Results of the OIG Audit

     We found that the Laboratory complied with the Forensic QAS tested.
These results are described in more detail below.

       •	 The Laboratory underwent a QAS review in each of the last
          2 calendar years as required by the QAS for laboratory reviews. In
          June 2010 and December 2011, the laboratory underwent QAS
          reviews by external reviewers.

       •	 We reviewed the most recent QAS reports provided by the
          Laboratory’s CODIS Administrator. The FBI’s QAS Review
          Document was used to conduct the external reviews. We contacted
          the FBI and verified that at least one reviewer on each of the
          external teams had successfully completed the FBI QAS Review
          training course. In the June 2010 external review report, there
          were findings and responses with corrective actions. The FBI closed
          this report and considered the Laboratory to be in compliance on
          February 9, 2012. According to the December 2011 external review
          report, there were no instances of laboratory noncompliance with
          the QAS.


       10
          Forensic Quality Assurance Standards refer to the Quality Assurance Standards for
Forensic DNA Testing Laboratories, effective September 1, 2011.
       11
            The QAS require that laboratories undergo annual audits. Every other year, the
QAS require that the audit be performed by an external agency that performs DNA
identification analysis and is independent of the laboratory being reviewed. These audits
are not required by the QAS to be performed in accordance with Government Auditing
Standards (GAS) and are not performed by the Department of Justice, Office of the
Inspector General. Therefore, we will refer to the QAS audits as reviews (either an internal
laboratory review or an external laboratory review, as applicable) to avoid confusion with
our audits that are conducted in accordance with GAS.

                                           -9­
•	 The QAS require that the Laboratory submit external QAS review
   reports to the NDIS Custodian in the FBI within 30 days of the
   Laboratory receiving them. The external audit reports from
   June 2010 and December 2011 were both sent to the NDIS
   Custodian in the FBI within 30 days of the date the Laboratory
   received its copy of the report.

•	 Our review of the December 2011 external review report confirmed
   there were no repeat findings.

•	 Auditors who participated in the external reviews certified that they
   were free from conflicts of interest.

•	 We toured the Laboratory building and interviewed the CODIS
   Administrator, and we determined that the facility appeared to have
   adequate physical access controls in place.

•	 We interviewed the CODIS Administrator and reviewed written
   policies and concluded that the Laboratory appeared to have
   adequate procedures in place to ensure the integrity of physical
   evidence.

•	 We interviewed the CODIS Administrator and reviewed policies and
   practices regarding the separation of samples during the analysis
   process. We determined that the policies and procedures appeared
   to be adequate. During our laboratory tour, we confirmed that
   within the DNA Laboratory, individual rooms were set up in a walk­
   through design so that the analysis of samples moved from one
   room into another. As a result, the Laboratory kept evidence
   examination, DNA extraction, and Polymerase Chain Reaction (PCR)
   setup areas separate from one another.

•	 We interviewed the Laboratory Director and discovered that the
   Laboratory does not maintain any evidentiary samples after
   analysis. Any samples remaining after analysis are returned to the
   submitting agency.

•	 We learned that the Laboratory did not outsource the analysis of its
   forensic DNA samples to another laboratory and has not done so in
   the past 2 years.




                              - 10 ­
Conclusion

      We found the Laboratory to be in compliance with all areas of QAS
requirements that we reviewed. Specifically, we found that the Laboratory:
(1) underwent QAS reviews within designated timeframes; (2) had
procedures in place to ensure that access to the Laboratory was controlled
and limited to authorized personnel; and (3) followed protocols with regard
to amplified samples being maintained in separate rooms from the evidence
examination, DNA extraction, and PCR setup areas. We made no
recommendations concerning our review of Quality Assurance Standards.




                                   - 11 ­
       III. Suitability of Forensic DNA Profiles in CODIS Databases

       Of the 100 forensic profiles we reviewed, 92 profiles were
       complete, accurate, and allowable for inclusion in NDIS. We
       identified eight profiles that were not allowable for inclusion in
       NDIS. The profiles were either missing supporting information to
       sustain their allowability in NDIS, belonged to the victim, or
       could not be connected to the crime scene.

       We reviewed a sample of the Laboratory’s forensic DNA profiles to
determine whether each profile was complete, accurate, and allowable for
inclusion in NDIS. To test the completeness and accuracy of each profile, we
established standards that require a profile include all the loci for which the
analyst obtained results and that the values at each locus match those
identified during analysis. Our standards are described in more detail in
Appendix II of this report.

       The FBI’s NDIS operational procedures establish the DNA data
acceptance standards by which laboratories must abide. The FBI also
developed a flowchart as guidance for the laboratories for determining what
is allowable in the forensic index at NDIS. Laboratories are prohibited from
uploading forensic profiles to NDIS that clearly match the DNA profile of the
victim or another known person that is not a suspect. A profile at NDIS that
matches a suspect may be allowable if the contributor is unknown at the
time of collection. However, NDIS guidelines prohibit profiles that match a
suspect if that profile could reasonably have been expected to be on an item
at the crime scene or part of the crime scene independent of the crime. For
instance, a profile from an item seized from the suspect’s person, such as a
shirt, or that was in the possession of the suspect when collected, is
generally not a forensic unknown and would not be allowable for upload to
NDIS. The NDIS procedures we reviewed are listed in Appendix II of this
report.

Results of the OIG Audit

      We selected a sample of 100 profiles out of the 3,649 forensic profiles
the Laboratory had uploaded to NDIS as of April 5, 2012. 12 Of the
100 forensic profiles sampled, we found 8 were unallowable for upload to
NDIS. The CODIS Administrator agreed with our findings and deleted all
eight profiles from CODIS. The remaining profiles sampled were complete,

       12
           When selecting forensic profiles for detailed testing, we utilized a universe of
profiles that were active in NDIS at the time of our audit, which included those uploaded
since the inception of the CODIS program at the Grand Rapids Laboratory.

                                            - 12 ­
accurate, and allowable for inclusion in NDIS. The specific exceptions are
explained in more detail below.

OIG Sample Number 5

      The profile was taken from the swabbing of a plastic applicator that
was found at the suspect's house, which was not the scene of the crime. In
accordance with FBI guidance on how to determine what DNA data is
allowable in NDIS, profiles should be developed from biological material of
crime scene evidence. Therefore, this sample is not valid for inclusion in
NDIS.

OIG Sample Number 6

       The profile was derived from the swabbing of the top of a bottle that
was found on the suspect, but not at the crime scene. Because the profile
was not developed from biological material of crime scene evidence and was
collected from an object found on the suspect’s person where the individual’s
DNA would reasonably be expected to exist, this sample is not valid for
inclusion in NDIS.

OIG Sample Number 7

      The profile was developed from a rag with a blood stain that was taken
from the suspect during the arrest, which was at his brother's house, not at
the scene of the crime. In accordance with the FBI guidance described
above, this sample is not valid for inclusion in NDIS because it was not
developed from biological material of crime scene evidence.

OIG Sample Number 11

       The profile was taken from the inside of a condom that was found in
trash that was hauled away from a service station. This case was a
homicide that occurred at a residence and the body was left in a car behind
the service station. The sample was not taken from the crime scene, as
required by the FBI guidance described above; therefore, it is not valid for
inclusion in NDIS.




                                    - 13 ­
OIG Sample Number 26

      This case was an assault, and the profile was taken from blood on a
gun magazine. According to the case records, the suspect was not bleeding;
only the victim was bleeding. Therefore, it appears the blood on the gun
was likely from the victim. We discussed this case with the CODIS
Administrator, and the Laboratory removed the profile from NDIS.

OIG Sample Number 28

       This profile was taken from a swabbing of a pistol grip. The pistol was
obtained as part of a search warrant from a location that was not the scene
of a crime; therefore, this profile is not allowable for inclusion in NDIS.

OIG Sample Number 49

       The profile was taken from a sexual assault swab. However, there was
no further information in the file from the law enforcement agency. The
CODIS Administrator told us that there were major problems at this law
enforcement agency during the 1990s, and all agency files originating during
that time were destroyed. This profile fell into that timeframe. During our
audit, the CODIS Administrator contacted the FBI and the local District
Attorney in an attempt to determine the proper course of action. The FBI
contact deferred to the District Attorney’s opinion on the matter. The
District Attorney stated that without the law enforcement records, they
would not be able to prosecute the suspect if there was a CODIS match.
Because it could not be shown that the profile was attributable to a putative
perpetrator, this profile was removed from NDIS.

OIG Sample Number 63

       This case was a murder/non-negligent homicide, and the profile was
taken from the swabbing of a revolver. This gun was found during a traffic
stop, not at the scene of the crime. Because the profile was not developed
from biological material of crime scene evidence, this sample is not valid for
inclusion in NDIS.

Conclusion

       Out of the 100 profiles we reviewed, 8 were unallowable for inclusion
in NDIS. The remaining profiles were complete, accurate, and allowable for
inclusion in NDIS. Of the eight unallowable profiles, six were not developed
from biological material of crime scene evidence (one of which was also
taken from the suspect’s person), one lacked supporting documentation to

                                    - 14 ­
show that the profile was attributable to a putative perpetrator, and the
other was likely the victim’s profile. All eight of the unallowable profiles in
our sample were processed by the Laboratory prior to the 2006 FBI guidance
regarding the allowability of profiles in NDIS. 13 Because our sample did not
reflect any errors in the last 5 years, it appears the Laboratory has since
followed the guidance to prevent the entry of unallowable profiles in NDIS.
Therefore, we made no recommendations concerning our review of Forensic
DNA profiles.




      13
          In addition, in 2007 the FBI began compelling CODIS laboratories to maintain
information in their files to support allowability of the profiles.

                                          - 15 ­
                                                                           APPENDIX I

              OBJECTIVES, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

       Our audit generally covered the period from April 2010 through
April 2012. 14 The objectives of the audit were to determine if the:
(1) Laboratory was in compliance with the National DNA Index System
(NDIS) participation requirements; (2) Laboratory was in compliance with
the Quality Assurance Standards (QAS) issued by the FBI; and
(3) Laboratory’s forensic DNA profiles in CODIS databases were complete,
accurate, and allowable for inclusion in NDIS. To accomplish the objectives
of the audit, we:

       •    Examined internal and external Laboratory QAS review reports and
            supporting documentation for corrective action taken, if any, to
            determine whether: (a) the Laboratory complied with the QAS,
            (b) repeat findings were identified, and (c) recommendations were
            adequately resolved.

            In accordance with the QAS, the internal and external laboratory
            review procedures are to address, at a minimum, a laboratory’s
            quality assurance program, organization and management, personnel
            qualifications, facilities, evidence control, validation of methods and
            procedures, analytical procedures, calibration and maintenance of
            instruments and equipment, proficiency testing of analysts, corrective
            action for discrepancies and errors, review of case files, reports,
            safety, and previous audits. The QAS require that internal and
            external reviews be performed by personnel who have successfully
            completed the FBI’s training course for conducting such reviews.

            As permitted by Government Auditing Standards 7.42
            (2007 revision), we generally relied on the results of the

       14
           When selecting forensic profiles for detailed testing, we utilized a universe of
profiles that were active in NDIS at the time of our audit, which included those uploaded
since the inception of the CODIS program at the Grand Rapids Laboratory.

                                            - 16 ­
            Laboratory’s external laboratory review to determine if the
            Laboratory complied with the QAS. 15 In order to rely on the work
            of non-auditors, Government Auditing Standards require that we
            perform procedures to obtain sufficient evidence that the work can
            be relied upon. Therefore, we: (1) obtained evidence concerning
            the qualifications and independence of the individuals who
            conducted the review; and (2) determined that the scope, quality,
            and timing of the audit work performed was adequate for reliance in
            the context of the current audit objectives by reviewing the
            evaluation procedure guide and resultant findings to understand the
            methods and significant assumptions used by the individuals
            conducting the reviews. Based on this work, we determined that
            we could rely on the results of the Laboratory’s external laboratory
            review.

       •	 Interviewed Laboratory officials to identify management controls,
          Laboratory operational policies and procedures, Laboratory
          certifications or accreditations, and analytical information related to
          DNA profiles.

       •	 Toured the Laboratory to observe facility security measures as well as
          the procedures and controls related to the receipt, processing,
          analyzing, and storage of forensic evidence and convicted offender
          DNA samples.

       •	 Reviewed the Laboratory’s written policies and procedures related to
          conducting internal reviews, resolving review findings, expunging
          DNA profiles from NDIS, and resolving matches among DNA profiles
          in NDIS.

       •	 Reviewed supporting documentation for 5 of 52 NDIS matches to
          determine whether they were resolved in a timely manner. The
          Laboratory provided the universe of NDIS matches as of
          April 16, 2012. The sample was judgmentally selected to include
          both case-to-case and case-to-offender matches. This non-statistical
          sample does not allow projection of the test results to all matches.

       •	 Reviewed the case files for selected forensic DNA profiles to

       15
          We also considered the results of the Laboratory’s internal laboratory review, but
could not rely on it because it was not performed by personnel independent of the
Laboratory. Further, as noted in Appendix II, we performed audit testing to verify
Laboratory compliance with specific QAS that have a substantial effect on the integrity of
the DNA profiles uploaded to NDIS.


                                           - 17 ­
        determine if the profiles were developed in accordance with the
        Forensic QAS and were complete, accurate, and allowable for
        inclusion in NDIS.

     •	 Working in conjunction with the FBI, we obtained an electronic file
        identifying the 3,649 forensic profiles the Laboratory had uploaded
        to NDIS as of April 5, 2012. We limited our review to a sample of
        100 profiles. This sample size was determined judgmentally because
        preliminary audit work determined that risk was not unacceptably
        high.

        Using the judgmentally determined sample size, we randomly
        selected a representative sample of labels associated with specific
        profiles in our universe to reduce the effect of any patterns in the list
        of profiles provided to us. However, because the sample size was
        judgmentally determined, the results obtained from testing this
        limited sample of profiles may not be projected to the universe of
        profiles from which the sample was selected.

      The objectives of our audit concerned the Laboratory's compliance with
required standards and the related internal controls. Accordingly, we did not
attach a separate statement on compliance with laws and regulations or a
statement on internal controls to this report. See Appendix II for detailed
information on our audit criteria.




                                     - 18 ­
                                                                       APPENDIX II

                                AUDIT CRITERIA

      In conducting our audit, we considered the NDIS participation
requirements, the QAS, and the FBI Flowchart: A Guide to Determining
What is Allowable in the Forensic Index at NDIS. 16 However, we did not test
for compliance with elements that were not applicable to the Laboratory. In
addition, we established standards to test the completeness and accuracy of
DNA profiles as well as the timely notification of DNA profile matches to law
enforcement.

NDIS Participation Requirements

       The NDIS participation requirements and the NDIS operational
procedures establish the responsibilities and obligations of laboratories that
participate in NDIS. The MOU requires that NDIS participants comply with
federal legislation and the QAS, as well as NDIS-specific requirements
accompanying the MOU in the form of appendices. We focused our audit on
specific sections of the following NDIS requirements.

       •    NDIS Laboratories Procedure
       •    Quality Assurance Standards Audit Procedure
       •    NDIS Confirmation and Hit Dispositioning Procedure
       •    NDIS DNA Records Procedure
       •    DNA Data Acceptance Standards
       •    NDIS Searches Procedure
       •    NDIS Security Requirements Procedure

Quality Assurance Standards

      The FBI issued two sets of QAS: QAS for Forensic DNA Testing
Laboratories, effective September 1, 2011 (Forensic QAS); and QAS for DNA
Databasing Laboratories, effective September 1, 2011 (Offender QAS). The
Forensic QAS and the Offender QAS describe the quality assurance
requirements that the Laboratory should follow to ensure the quality and
integrity of the data it produces.

     For our audit, we generally relied on the reported results of the
Laboratory’s most recent annual external review to determine if the

       16
          The FBI Flowchart is guidance issued to NDIS-participating laboratories separate
from the MOU and NDIS operational procedures. The flowchart is contained in the
2010 CODIS Administrator’s Handbook and has been provided to laboratories in forums
such as CODIS conferences.

                                          - 19 ­
Laboratory was in compliance with the QAS. Additionally, we performed
audit work to verify that the Laboratory was in compliance with the QAS
listed below because they have a substantial effect on the integrity of the
DNA profiles uploaded to NDIS.

      •	 Facilities (Forensic QAS and Offender QAS 6.1): The laboratory shall
         have a facility that is designed to ensure the integrity of the
         analyses and the evidence.

      •	 Evidence Control (Forensic QAS 7.1): The laboratory shall have and
         follow a documented evidence control system to ensure the integrity
         of physical evidence. Where possible, the laboratory shall retain or
         return a portion of the evidence sample or extract.

      •	 Sample Control (Offender QAS 7.1): The laboratory shall have and
         follow a documented sample inventory control system to ensure the
         integrity of the database and known samples.

      •	 Analytical Procedures (Forensic QAS and Offender QAS 9.5): The
         laboratory shall monitor the analytical procedures using [appropriate]
         controls and standards.

      •	 Review (Forensic QAS 12.1): The laboratory shall conduct
         administrative and technical reviews of all case files and reports to
         ensure conclusions and supporting data are reasonable and within
         the constraints of scientific knowledge.

      •	 Reviews (Forensic QAS and Offender QAS 15.1 and 15.2): The
         laboratory shall be audited annually in accordance with [the QAS].
         The annual audits shall occur every calendar year and shall be at
         least 6 months and no more than 18 months apart.

         At least once every 2 years, an external audit shall be conducted by
         an audit team comprised of qualified auditors from a second
         agency(ies) and having at least one team member who is or has
         been previously qualified in the laboratory’s current DNA technologies
         and platform.

Office of the Inspector General Standards

       We established standards to test the completeness and accuracy of
DNA profiles as well as the timely notification of law enforcement when DNA
profile matches occur in NDIS. Our standards are listed below.


                                     - 20 ­
•	 Completeness of DNA Profiles: A profile must include each value
   returned at each locus for which the analyst obtained results. Our
   rationale for this standard is that the probability of a false match
   among DNA profiles is reduced as the number of loci included in a
   profile increases. A false match would require the unnecessary use
   of laboratory resources to refute the match.

•	 Accuracy of DNA Profiles: The values at each locus of a profile
   must match those identified during analysis. Our rationale for this
   standard is that inaccurate profiles may: (1) preclude DNA profiles
   from being matched and, therefore, the potential to link convicted
   offenders to a crime or to link previously unrelated crimes to each
   other may be lost; or (2) result in a false match that would require
   the unnecessary use of laboratory resources to refute the match.

•	 Timely Notification of Law Enforcement When DNA Profile Matches
   Occur in NDIS: Laboratories should notify law enforcement
   personnel of NDIS matches within 2 weeks of the match
   confirmation date, unless there are extenuating circumstances. Our
   rationale for this standard is that untimely notification of law
   enforcement personnel may result in the suspected perpetrator
   committing additional, and possibly more egregious, crimes if the
   individual is not deceased or already incarcerated for the
   commission of other crimes.




                              - 21 ­
                                                                                                                APPENDIX III


                                         AUDITEE RESPONSE




                                               MPAPTlJ[~ T         01- SrATE   ~ICE

                                                        l' ~ ' " ~ """",, Ui, hi""




t,j" C"or S, ''''.''''. ,
"""on" Au,"       "''"' ' !l''
u,S, --""""',,""', ,U"iic.
01<". or tho r..pcctoc """"". (a G)
Gt""""'" R.., •• " , "''''' 01'0:;_
000 \\'(:,;t M""""", s...... , ScOIo 1121
~-"" "9'\   II ..,., .;000 ' _2>O'J



" ""
     ",,,,,, UNA ""'",
T", Ij chi\>Jo &".          s,-._ "". . ..... ''' ""-no'" ",,,.
Cool ""'" .. ., ,.,,,,,,,5O '" b   "' '' ~ ." ",port" fl" Awl" Coo""",,,," ~'~ ' ",,,",,..-d. 5",0''''",
                                                               roI>:. l """,lOry, Grroo
                         Polee Grood RoIpid& 'orooooc ~ ""';..'od .... ,,,"
                                                                                                    ..,~ '''pm,
                                                                                                  ,,,,tt """"
                                                                                               ,.-<1 " .. c.-..
""'''"..,' "'0."<:,,, " •    ..,,00

W. ""'". .,    ""*,iQn   be ""''"' wtoeo the r<pert ~= to the tme ),ybj ""
1" 0..-..' Ai"'"''' I".". 6) "", .. '" ~ .... , _ . _
                                                                                               ow,
                                                                                     ""." n ...... "", ' 2010
                                                            to ot;oct;""" .ne objoct;.,..", "FOOl""" "'l
t-<o!~, ""''''.., ",,0 COO S", ineW< eoh ' ~"" " 10'-,",0 12 '" oOjod"" *'- • ~ _ ' ' ' 2,
1"l1C"""~ ~ ", hi or ...         ';od
                             ' h. , tho "" .. "" _ (\0,.,-", '-""1<:>,,.>1< h' nck, _ in _ U S ".",.
",,,"reO   betn~ en   tho '/C" e<   0I'2OIJ,..,,,,,,
n"CIG rlr3I't ""'" COXl1 If)'J'J.,",,'o'C "")F"""""",l"""'"'lfl... t,.. ., """,..._
h
  " '""""" st" .. """'" <30-.. ....... Quc"",>, p- - . r "f'P'"C"''' ,he _                             "'1" =pom .,
                                                                                                     ... " ".

S ~cere',
       -----:-/~
~'d- -_~




lUS CCU~ ~"" . , "" .. "'
Grw  R,oK!> f oreooic Wl"''''''l'

"" Do..-.."" ,W""P'" D
    tn S"""oc~ '




                    .,"'" """"          rcr<: "" ~
                                                                       ..
                                                     """",w" . ,'", '"'---" .. ........, "..,. ..." '''' _"
                                                      - ,-""',.,.._ '"",'"''''


                                                                - 22 ­
                                                                                    APPENDIX IV


FEDERAL BUREAU OF INVESTIGATION RESPONSE





                                                       IU. "',." .... tll - '

                                                       "-" 6oon. ottc".;p<1Oo

- - - - - -- -                                         '~- ,        ,,, ",,,,,,,.




fbrt.... I """A,a:

               YWI .-.-.!uno \0 an-or Moolkr foroaJd;.~ ""' dndI ondiI...pGII. to. III<
'1i<IoIpn SItIe _   . Clnr.d Hqods ~. G.- R~ Mi,,'hi~ (um",lOry), ),. ,
,.,.,~   .. t=~ ~, It1C 1'ot =POO""




                                                so."",lf,

                                               at..:.!1'~
                                                 1_ " , !'b.,D.
                                                Alice~.

                                                Sect"'" Cloitl'
                                                n _.AIIII,:Ii>_
                                                I'IlI U lom.lct)'




                                           - 23 ­
